U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



     Food and Nutrition Service
   National School Lunch Program
     Unified School District 204
       Bonner Springs, Kansas




                Report No.
                27010-13-KC
                June 2003
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL - AUDIT
                                          Great Plains Region
                                     8930 Ward Parkway, Suite 3016
                                    Kansas City, Missouri 64114-3302
                                  TEL: 816.926.7667 FAX: 816.926.7676




DATE:          June 20, 2003

REPLY TO
ATTN OF:       27010-13-KC

SUBJECT:       National School Lunch Program – Unified School District 204,
               Bonner Springs, Kansas

TO:            William E. Ludwig
               Regional Administrator
               Food and Nutrition Service
               1244 Speer Boulevard, Suite 903
               Denver, CO 80204


This report presents the results of our audit of the National School Lunch Program
(NSLP)1 as operated by Unified School District 204. This district served as the local
school food authority (SFA) under an agreement with the Kansas State Department of
Education (KSDE), which served as the State agency (SA). We evaluated policies and
procedures over meal accountability and oversight of the program operation to include
the accuracy of collections and accounting processes and the use of program funds.
We found the Annual Financial Status Summary submitted to the SA was inaccurate.
The SFA officials did not perform cost analyses to ensure funds were used in an
economical and efficient manner and did not use available reports as a management
control over meal accountability. Also, the SFA’s accounting procedures did not include
crediting the food service account a prorated share of interest earned from investments.

BACKGROUND:

The KSDE serves as the SA for administering the program within the State, and the
U.S. Department of Agriculture’s (USDA) Food and Nutrition Service (FNS) serves as
the program’s funding agency. For school year 2001/2002 operations, the SFA
submitted claims totaling about $277,0002 in FNS reimbursement and about $10,000 in
SA reimbursement. The SFA, located in Bonner Springs, Kansas, is responsible for
operating the NSLP in accordance with regulations. Each SA is required to enter into a
written agreement with FNS to administer the NSLP/SBP and each SA enters into
agreements with SFA’s to oversee day-to-day operations.


1
  Includes the School Breakfast Program (SBP).
2
  SFA received FNS reimbursement under the NSLP, SBP, Special Milk Program, and a Federal grant to
feed the children of migrant workers. Our review was limited to the NSLP and SBP.
On June 4, 1946, Congress passed the National School Lunch Act,3 now the
Richard B. Russell National School Lunch Act, which authorizes Federal school lunch
assistance. Section 4 of the Act authorizes general cash assistance payment for all
lunches served to children in accordance with the provisions of the NSLP and additional
special cash assistance for lunches served under the NSLP to children determined
eligible for free or reduced-price lunches. The States are reimbursed at various rates
per lunch, depending on whether the child was served a free, reduced-price, or full-price
(paid) lunch. The fiscal year (FY) 2002 funding for the NSLP was $6 billion for meal
reimbursements of approximately 4.7 billion lunches. The Kansas SA received
approximately $58 million for the NSLP and $14 million for the SBP in Federal
reimbursements for FY 2002. For school year 2001/2002, Kansas provided State funds
of approximately $2.5 million to SFA’s.

OBJECTIVES:

The objectives of our audit were to evaluate controls over the administration of the
NSLP and SBP. We evaluated policies and procedures over meal accountability and
oversight of program operation. To accomplish this, we determined (1) the accuracy of
collections and accounting for reimbursed meals, (2) the accounting and use of program
funds relating to the SFA’s procurement of goods and services, and (3) the accounting
for the SFA’s school food service operations.

SCOPE AND METHODOLOGY:

Our review primarily covered NSLP/SBP operations from July 1, 2001, through
December 31, 2002, concentrating on operations since July 1, 2002. However, records
for other periods were reviewed, as deemed necessary. We performed audit work at
the FNS Regional office, Kansas SA, and the SFA in Bonner Springs, Kansas. Audit
work was performed at the SFA during January through February 2003. We reviewed
NSLP/SBP operations at all four schools and made observations at one elementary
school. Our audit was performed in accordance with government auditing standards.

To accomplish our review objectives: we reviewed FNS, SA, and SFA regulations,
policies, procedures, manuals, and instructions governing NSLP/SBP operations, and
interviewed officials at each level.      We also reviewed the SA’s most recent
administrative review of the SFA’s NSLP/SBP operations and the SFA’s corrective
actions taken in response to the administrative review findings and recommendations.
We also (1) evaluated the SFA’s procedures used to gather and consolidate monthly
meal claims and determined whether reports were verified for accuracy, (2) evaluated
edit check controls used to assure the reasonableness of claims for reimbursement,
(3) reviewed the SFA’s accounting system, which included a review of program funds
and interest on those funds, (4) analyzed the SFA’s methods used for procurement of
goods and services, and (5) analyzed the monitoring efforts of the SFA through a review
of the onsite accountability reviews conducted during school year 2001/2002.



3
    42 U.S. Code 1751.
FINDINGS:

Finding No. 1:

The SFA improperly combined a la carte sales from students’ meal card/accounts with
reimbursable meal sales, although the SFA’s automated system used for counting
meals had the capability to record these sales separately. Although the SFA was aware
of the State prescribed chart of accounts, they did not use the available tools of their
automated system to separate sales. As a result, the revenue ledgers were inaccurate
and the Annual Financial Status Summary submitted to the SA was inaccurate.

SA procedures require that student reimbursable meal sales be separately reported
from a la cart sales.4

We asked SFA personnel to explain selected information shown in reports generated
from the automated meal counting system. They replied they had not received recent
training and could not explain all the functions the automated system could perform.
The SFA personnel advised that they were not aware if the system could separate a la
carte sales (from students’ meal card/accounts) from reimbursable meal sales.
However, the vendor of the automated system told us that the system could separate
the sales. He also said the system could provide various summary reports that could be
used to analyze revenue and meal count information.

Recommendation No. 1:

Require the SA to direct the SFA to develop procedures to separately record
reimbursable meal sales from a la carte sales and request the SA to encourage the SFA
to obtain training to fully use the capabilities of their meal counting system including
optimizing the use of summary reports from the automated system to manage the
program.

Agency Response:

The FNS response to the draft report concurred that the SA should direct the SFA to
develop procedures to separately record reimbursable meal sales from a la carte sales.
However, FNS suggested we modify our recommendation because there was not a
mandate to take a specific action (training on the automated system).

OIG Position:

We modified our recommendation to address the comments made by FNS (attached as
exhibit A). We had previously discussed with the SA the possibility of including training
on automated systems at one of its various workshops using a knowledgeable school
employee as an instructor. The SA did not object to this action at that time. We can
4
    Kansas Accounting Handbook for Unified School Districts, Paragraph 22.
accept the management decision once we receive satisfactory timeframes for the
completion of the recommended actions.

Finding No. 2:

The SFA had not performed a current cost benefit analysis between food service
vendors, nor explored the benefits of standardized procurement, storage, and menus.
The SFA had not conducted any recent cost benefit analyses because they relied on
historical experience. They noted that a lack of storage space limited their ability to
effectively use the economical benefits of a purchasing cooperative. As a result, the
SFA may be paying significantly higher prices for food and supplies.

Federal regulations state procurement of supplies, food, equipment, and other services
with program funds, are to be obtained for the program efficiently and economically and
that consideration should be given to consolidating or breaking out procurements to obtain
more economical purchases and, where appropriate, an analysis will be made to determine
the most economical approach. To foster greater economy and efficiency, grantees and
subgrantees are encouraged to enter into State and local intergovernmental agreements
for procurement or use of common goods and services.5

The SFA allows each school’s food service manager the authority to select vendors at
their discretion and order food and supplies without any centralized oversight. There is
no standardization of menus among the four schools. The SFA could not provide us
with any procurement analysis they had performed. We performed an analysis of
nine similar products purchased from two vendors currently used by the individual food
service managers. We compared charges by two vendors and found one vendor
overall charged 7.8 percent less compared to prices charged by the second vendor. A
second analysis of 24 similar products offered by a purchasing cooperative showed the
SFA could have saved 41.6 percent compared to the price actually paid to current
vendors.

Although not a formal finding requiring a response by the SFA, the SA’s review in 1998
noted the SFA had each school’s food service manager doing their own purchasing.
The reviewer suggested that the purchasing be done by one person with the managers’
input encouraged. SFA personnel said they had not formally considered changing their
purchasing procedures because the SA did not require a reply to the suggestion.

Recommendation No. 2:

Instruct the SA to work with the SFA to perform analyses of alternatives to their current
procurement process, including the costs of additional storage and standardized menus
to determine the most economical approach.

Agency Response:


5
  7 CFR 210.21(a) and 7 CFR 3016.36(b)(4) and (5). (We did not identify any SA or local requirements more restrictive
than the Federal requirements.)
FNS concurred with the recommendation and will require the SA to work with the SFA
to accomplish the recommended analyses.



OIG Position:

We can accept the management decision once we receive specific timeframes for the
completion of the proposed actions.

Finding No. 3:

The school food service account was not credited a prorated share of interest earned
from investments. According to the SFA, the SA had never instructed it to allocate
interest to the school food service account. We estimated the earned monthly interest
that should have been credited to be between $62 and $209 per month.

The Federal regulations definition of revenue shows that a prorated share of earnings
earned from investments should be credited to the school food services account.6

The school food service account closing cash balances ranged from approximately
$97,500 to $172,600, and the interest rates per month from the SFA’s general fund
ranged from 1.45 percent to 0.76 percent. The SFA placed all interest earned from the
general fund and other investment activities into the transportation fund. Because the
SFA historically transferred general funds to the food service account, we are not
questioning any costs, but the earnings from the balance in the school food service
account should be recognized in the SFA’s accounting system.

Recommendation No. 3:

Require the SA to instruct the SFA to credit the school food service account with its
prorated share of the investment income.

Agency Response:

FNS concurred with the recommendation and will require the SA to instruct the SFA to
credit the food service account with its prorated share of the investment income.

OIG Position:

We can accept the management decision once we receive specific timeframes for the
completion of the proposed action.




6
    7 CFR 210.2.
In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframes for accomplishing final
action. Please note that the regulation requires management decisions to be reached on
all findings and recommendations within 6 months from the date of report issuance.

We appreciate the assistance provided to us during our review.


/s/

DENNIS J. GANNON
Regional Inspector General
 for Audit
EXHIBIT A – FNS RESPONSE TO THE DRAFT REPORT
